             TESTIMONY OF HAROLD W. GEISEL

               DEPUTY INSPECTOR GENERAL


              U.S. DEPARTMENT OF STATE AND
         THE BROADCASTING BOARD OF GOVERNORS




                      BEFORE THE



         UNITED STATES HOUSE OF REPRESENTATIVES

    COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

SUBCOMMITTEE ON NATIONAL SECURITY, HOMELAND DEFENSE AND

                  FOREIGN OPERATIONS


                            ON

          OVERSIGHT IN IRAQ AND AFGHANISTAN:

               CHALLENGES AND SOLUTIONS




                    DECEMBER 7, 2011




                           1
        Thank you, Chairman Chaffetz, Ranking Member Tierney, and members of the
subcommittee, for the opportunity to testify today about the mechanisms we have in place to
oversee Department programs in Iraq and Afghanistan.

OIG Oversight in Iraq and Afghanistan

        Since standing up its overseas offices in 2008, the Office of Inspector General (OIG) has:

        •   Conducted 31 investigations and produced 27 audits, inspections, and reviews of
            programs and operations in Iraq, including two reviews—one in 2009 and one issued
            this past May—of the State Department’s planning for and transition to a civilian-led
            mission in Iraq.
        •   Conducted 14 investigations and produced 22 audits, inspections, and reviews of
            programs and operations in Afghanistan, many of which relate to the Department’s
            eventual transition from military to civilian control in Afghanistan.
        •   Issued 11 audits, inspections, and reviews of programs that have a direct bearing on
            the Department’s program success and transition issues in Iraq and Afghanistan.
            These programs include security contracts, refugees, migration, trafficking in persons,
            and counterterrorism.
        •   Conducted inspections of 15 U.S. missions in countries surrounding Iraq and
            Afghanistan, which are under the support and guidance of the Bureaus of South and
            Central Asian Affairs and Near Eastern Affairs. Recent inspections of those bureaus,
            as well as of the offices of the Special Envoy for Middle East Peace and the Special
            Representative for Afghanistan and Pakistan resulted in recommendations to improve
            program and operational management by those organizations.

        All told, our efforts in Iraq and Afghanistan during FY 2011 have resulted in more than
$200 million in questioned costs and funds put to better use, $16.6 million in investigative
recoveries, and 20 contractor suspensions. Two recent investigative cases are worthy of particular
note:
        On July 6, 2011, as the result of a civil settlement filed in the U.S. District Court for the
District of Columbia, a security contractor in Afghanistan agreed to pay more than $7.5 million
in fines and recoveries. An OIG investigation into allegations that the contractor was involved in

                                                   2
a variety of misconduct determined that the company had avoided implementing required
policies concerning trafficking in persons, misrepresented the work history of its employees, and
failed to comply with foreign ownership, control, and influence mitigation requirements.
        On March 22, 2011, a contractor and subcontractor entered into separate civil
settlements with the Department of Justice and agreed to repay the government a total of more
than $8.7 million in damages, as the result of an OIG investigation into allegations that the
contractor and subcontractor grossly overcharged for work performed. The original contract,
valued at more than $1.7 billion, was awarded to recruit U.S. police officers, provide them with
developmental training, and equip them to participate in international peacekeeping operations,
including operations in Iraq. The investigation determined that the contractor had submitted
inflated claims for the construction of container camps at various locations in Iraq. The
subcontractor was determined to have sought reimbursement for danger pay that it falsely
claimed to have paid its U.S. expatriate employees working in Iraq.
       These examples demonstrate the impact that OIG has been able to achieve since
establishing an on-the-ground presence in Baghdad and Kabul. As a result of congressional
funding and support, OIG has fulfilled its commitment to vigorously oversee the Department’s
transition efforts in Iraq and Afghanistan, while maintaining our core program oversight in these
countries.
       Moving toward the post-transition period, State OIG will be one of the few remaining
oversight entities in Iraq. We will need to maintain or increase our oversight presence in Iraq and
Afghanistan, as well as our supporting presence in Islamabad, Cairo, and Amman, to effectively
carry out our oversight mission, undertake investigative cases, and meet expected increases in
workload during the post-transition period.


Transition Planning and Preparations
The challenges the Department faces in the transition to a civilian-led presence in Iraq are
significant. DOD’s planned withdrawal of its troops by the end of 2011 requires that the
Department of State provide security, life support, transportation, and other logistical support
that DOD presently provides in Baghdad and other operational sites throughout Iraq.
       Since 2009, OIG has conducted two reviews of the Department’s transition planning and
preparations—the first issued in August 2009 and the second in May 2011. Both of these reviews

                                                 3
found that the transition was taking place in an operating environment that was, and still is,
violent and unpredictable. During the same period, our Office of Inspections issued two
inspection reports—a July 2009 inspection of Embassy Baghdad and an October 2010
compliance follow-up review of that inspection—which included discussions and
recommendations related to the embassy’s transition planning efforts, among other areas.
       OIG’s August 2009 report on the Department’s transition planning efforts found that
Embassy Baghdad did not have a unified transition plan in anticipation of DOD’s drawdown and
had not appointed a senior-level coordinator for those activities; that the departure and relocation
of military personnel would affect the timely completion of large infrastructure projects being
managed by the Embassy; and that the Department’s planned reliance on the U.S. Army’s
Logistics Civil Augmentation Program (LOGCAP) contract for operational support may be
substantially different in terms of costs and services once the new LOGCAP contract is
awarded.
       The report recommended that the Embassy develop a unified transition plan and assign a
senior-level official to coordinate transition activities in Iraq; develop a workforce plan to
provide effective management and oversight of contractors and ensure timely completion of
projects; develop plans to determine what LOGCAP services would be required and ensure
adequate contract management personnel would be available to manage and oversee the
LOGCAP contract; and verify resource needs to meet the increase in logistical and program
support requirements stemming from the downsizing and departure of DOD. The Department
complied with OIG’s recommendations, all of which have been closed on the basis of
satisfactory implementation.
       In February 2011, in response to our October 2010 compliance follow-up review of the
Embassy Baghdad inspection, the Department appointed a Washington-based Ambassador to
manage the Iraq transition process. There had been continuous discussions in the Department
since 2009 to develop detailed budget figures for completing the transition and sustaining post-
transition operations. These discussions continue today, however, and funding uncertainties
continue to impede the Department’s overall efforts to fully transition from a military to a
diplomatic U.S. presence in Iraq.
       Our May 2011 transition report noted that Embassy Baghdad and the Department had
established planning and management mechanisms to effectively transition to a civilian-led

                                                  4
presence in Iraq. It also mentioned that the Department had made progress since the 2009
transition report was issued; however, at that time, several key decisions were pending, some
transition planning could not be finalized, and progress was slipping in some areas.
       Specifically, we remain concerned that, although progress was being made on completing
the remaining reconstruction projects and transferring them to the Government of Iraq, some
projects were still experiencing delays and were not expected to be completed until the summer
of 2012; and that establishing a viable diplomatic mission in Iraq without DOD support and
funding would require considerable resources, making it difficult to develop firm or detailed
budget estimates.
       The May 2011 transition report also found that:
       •   The training of police in Iraq was critical to long-term stability and was generally on
           schedule, but the inability to finalize land-use agreements had prevented the start of
           construction at some training sites.
       •   The Office of Security Cooperation (OSC) was expected to manage defense
           relationships between the U.S. Government and the Government of Iraq; however, the
           establishment of the OSC was behind schedule, and full mission capability was
           unlikely by October 2011.
       •   Four planned provincial posts (including the Erbil consulate) were required to sustain
           the civilian presence; however, those posts were unlikely to be fully established by
           the end of 2011, resulting in the embassy having to develop temporary facilities for
           those provincial posts until land-use and lease agreements with the Government of
           Iraq could be finalized and permanent facilities constructed.
       •   The Department planned to expand and sustain air operations, including air
           transportation for chief of mission personnel; however, they were behind schedule
           because additional aircraft needed to be procured and maintained, agreements on
           flight plans and land use needed to be obtained, and air facilities needed to be
           constructed or renovated.
       •   The protective security capability for U.S. Government personnel caused by the
           military’s withdrawal would need to be mitigated through closer working
           relationships with the Government of Iraq and its security forces, as well as access to



                                                  5
           DOD security-related information and equipment, and those relationships continued
           to be a work in progress.
       •   Finally, the potential existed that a mass casualty incident could occur, and the
           embassy had not adequately planned for such an incident.

       OIG’s recommendations in the May 2011 report specified that:
       •   program and operational plans be finalized to develop detailed cost estimates for
           completing the transition to a civilian-led mission and ensure that future funding
           requirements to sustain programs and operations are included in those estimates;
       •   an evaluation be performed for determining the optimum location to temporarily
           locate the Erbil consulate; and
       •   a mass casualty response plan be developed.
       The Department generally agreed with and was responsive to the intent of these
recommendations.
       Other progress has been made. Since last summer, the embassy has procured a number of
aircraft and established “Embassy Air,” and all flight plans and agreements have been finalized
with the Government of Iraq and other foreign authorities. The Department also has requested,
and received from DOD, mine-resistant ambush-protected vehicles (MRAPs), counter-rocket
artillery and mortar (CRAM) early warning systems, and other equipment for the protection of
U.S. Government personnel. Finally, since our report was issued, the embassy has been planning
and conducting exercises to prepare for a mass-casualty incident.


2012 Oversight Plans

       Looking forward, the Office of Investigations currently has 26 active investigations in the
Near East and South Asia regions, 15 of which relate to Iraq, and 9 of which relate to
Afghanistan. In addition, OIG investigations have contributed to the recent increase in
suspensions and debarments.
       Our Iraq and Afghanistan oversight plans include six audits, plus a planned joint audit
with DOD, of programs to be undertaken in Baghdad and Kabul in 2012.
       In Baghdad, we will be looking at the Worldwide Protective Services (WPS) contract for
Embassy Baghdad, the resources supporting medical operations in Iraq, and the Department’s


                                                 6
oversight of the WPS task order for Kirkuk and Mosul. We also plan to ask DOD IG to
undertake a joint audit of transition execution in Iraq, including implementation of the Baghdad
Master Plan.
       In Kabul, we plan to audit the WPS task order for the Kabul Embassy Security Force, the
administration and oversight of Bureau of International Narcotics and Law Enforcement Affairs
contracts to build prisons in Afghanistan, and the administration and the oversight and
management of the WPS task order for Herat and Mazar-E-Sharif.
       We also are working on or have planned six additional audits of programs that directly
affect programs in Iraq and Afghanistan; specifically:
       •   secure embassy construction and adherence to standards;
       •   counterterrorism security requirements;
       •   Department oversight of mine action programs;
       •   the Kabul WPS task order procurement process;
       •   $700 million in grants for Overseas Refugee Assistance Programs in the South Asia
           and Middle East; and
       •   Bureau of Diplomatic Security study and assessment of the WPS security requirement
           for the South Asia and Near East regions.
       In 2012, our Office of Inspections plans inspections of the Office of the Coordinator for
Counterterrorism, the 2010 inspection of Embassy Islamabad and the Office to Monitor and
Combat Trafficking in Persons. The Office of Audits is conducting follow-up work in the region
involving oversight of employee treatment by contractors hiring third-country nationals, and our
Office of Investigations also is actively engaged on this issue.
       We will continue to provide the Department and the Congress with a comprehensive
spectrum of audits, inspections, and investigations during the first year of post-transition activity
in Iraq and preparations for transition planning and operations in Afghanistan.


Contingency IG
Finally, as I testified before a Senate committee a year ago, the novel concept of creating a
permanent Inspector General to oversee contingency operations merits serious discussion. The
Special Inspector General for Iraq Reconstruction (SIGIR), performed a valuable oversight role



                                                  7
in Iraq, supported by hiring authorities and funding not available to permanent Inspectors
General.
         Until 2008, the Department of State OIG had operated for 14 years with flat-lined
budgets and insufficient staffing to conduct effective oversight in contingency areas. Since 2008,
we have worked with Congress to successfully address the resource issues that previously
hampered effective oversight of high-cost, high-risk Department of State programs in critical
crisis and post-conflict areas.
         Congress subsequently provided us with significant additional funding, beginning with
the FY 2008 supplemental bill and continuing with increased base appropriations through FY
2010. Once the proper resources were available, we successfully delivered effective oversight of
these Department programs and considerably increased our oversight and investigative capacity
in the region. For example, from FY 2004 through 2008 when OIG’s budget was flat-lined, OIG
produced 11 audits or inspections and conducted one investigation related to Afghanistan.
Thanks to strong Congressional support for increasing OIG’s resource base, OIG has produced
19 audits or inspections and conducted 14 investigations in Afghanistan in the past two years
alone.
         Established departmental OIGs have proven their ability to work together and with the
special IGs over the past two years to provide well-planned, effective, coordinated oversight in
contingency operations. The departmental IGs have existing processes, organizational structures,
and institutional knowledge of the programs within their departments that facilitate efficient
oversight of those programs and eliminate the learning curve that would be required of a
contingency IG. Current organizations already in existence, such as the Southwest Asia Joint
Planning Group and the International Contract Corruption Task Force, can be leveraged to
provide support for new contingencies around the world.
         Moreover, in an era of fiscal restraint, creating a permanent new bureaucracy to oversee
contingency operations may not be prudent. Millions of start-up dollars alone would be required
to establish and sustain the bureaucracy, even before it expanded staffing and operations in
response to specific contingencies. In addition, the creation of a new investigative unit includes
the significant challenges inherent in establishing policies, procedures, technical and logistical
support, and the legal framework necessary to provide the required law enforcement authorities
for such a unit to be effective. Finally, the current pool of qualified auditors, inspectors, and

                                                  8
investigators who are willing to deploy to contingency areas is limited, and the creation of a new
IG for contingency operations would create more competition for these sparse personnel
resources. In short, in the early years of Iraq operations, a special IG may have been needed,
given State OIG’s inadequate resources to provide effective oversight in these areas. Today, we
are structurally a different, more responsive organization with the increased resources and
experience necessary to carry out this mission.
       Mr. Chairman, Mr. Tierney, and members of the subcommittee, thank you once again for
the opportunity to appear today, and I am ready to answer your questions.




                                                  9
